Audit Report




OIG-11-062
SAFETY AND SOUNDNESS: Failed Bank Review of The Bank of
Miami, N.A.
March 3, 2011




Office of
Inspector General
Department of the Treasury
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                              March 3, 2011


            OIG-11-062

            MEMORANDUM FOR JOHN WALSH
                           ACTING COMPTROLLER OF THE CURRENCY

            FROM:                 Jeffrey Dye /s/
                                  Director, Banking Audits

            SUBJECT:              Failed Bank Review of The Bank of Miami, N.A.


            This memorandum presents the results of our review of the failure of The Bank of
            Miami, N.A., located in Coral Gables, Florida. The Bank of Miami opened in
            February 1964 as Fidelity National Bank of South Miami, and changed its name to
            The International Bank of Miami in 2002 to reflect its business of serving
            customers from the Latin American and the Caribbean communities. In September
            2008, The Bank of Miami adopted its current name. The Bank of Miami operated
            its main office in Coral Gables and two branch offices in Miami, Florida. OCC
            closed the bank and appointed the Federal Deposit Insurance Corporation (FDIC)
            receiver on December 17, 2010. As of September 30, 2010, The Bank of Miami
            had approximately $448.2 million in total assets and $374.2 million in total
            deposits. FDIC estimated that the loss to the Deposit Insurance Fund is $64 million.

            Because the loss to the Deposit Insurance Fund is less than $200 million, as set
            forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
            review of the failure of The Bank of Miami that was limited to (1) ascertaining the
            grounds identified by OCC for appointing FDIC as receiver and (2) determining
            whether any unusual circumstances exist that might warrant a more in-depth
            review of the loss. In performing our review, we (1) examined documentation
            related to the appointment of FDIC as receiver, (2) reviewed OCC reports of
            examination, and (3) interviewed OCC examination personnel.

            We conducted this performance audit during December 2010 and January 2011 in
            accordance with generally accepted government auditing standards. Those
            standards require that we plan and perform the audit to obtain sufficient,
            appropriate evidence to provide a reasonable basis for our findings and conclusions
            based on our audit objectives. We believe that the evidence obtained provides a
            reasonable basis for our findings and conclusions based on our audit objectives.
OIG-11-062
Page 2

Causes of The Bank of Miami’s Failure
OCC appointed FDIC as receiver based on the following grounds: (1) the bank had
experienced substantial decline of assets or earnings due to unsafe and unsound
practice, (2) the bank was in an unsafe and unsound condition to transact
business, and (3) the bank’s capital had been severely impaired.

The primary cause of The Bank of Miami’s failure was significant asset quality
deterioration that resulted from management’s deficient risk controls during the height
of an inflated local real estate market in 2006 and 2007. The Bank of Miami’s lending
focused on borrowers purchasing and developing local real estate, including
commercial real estate (CRE), and loans to companies that made residential mortgage
loans (mortgage warehouse loans). The bank did not (1) set CRE concentration limits;
(2) consistently obtain and analyze borrowers’ financial information on a timely basis;
and (3) implement an effective program to identify, monitor, and report credit
exceptions. The Bank of Miami hired a new president in February 2008 who initiated
positive changes. However, upon his departure in October 2009, existing bank
management was unable to maintain the commensurate level of experience and skill
necessary to manage the bank’s problem loan portfolio. As a result of significant loan
losses, the bank’s capital level became critically deficient and the board was unable to
identify and obtain additional sources of capital.

Conclusion
Based on our review of the causes of The Bank of Miami’s failure and the grounds
identified by OCC for appointing FDIC receiver, we determined that there were no
unusual circumstances surrounding the bank’s failure or the supervision exercised
by OCC. Accordingly, we have determined that a more in-depth review of the
bank’s failure by our office is not warranted.

We provided a draft of this memorandum to OCC management for comment. In its
response, OCC stated it agreed with our conclusion as to the causes of The Bank
of Miami’s failure and that it had no concerns with our determination that an in-
depth review of the bank’s failure was not warranted. The response is provided as
Attachment 1. A list of the recipients of this memorandum is provided as
Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-0384 or
Theresa Cameron, Audit Manager, at (202) 927-1011.

Attachments
         OIG-11-062

       Attachment 1
Management Response
                                                   OIG-11-062

                                                  Attachment 2
                                                    Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Evaluations
   Office of Accounting and Internal Control

Office of the Comptroller of the Currency

   Acting Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
